'V1'

)
65

No.<SUl

k
^

a

1

<a @
(Hi
^

FILED
SEP 2 1 2021
IN THE

OFFICE OF THE CLERK
SUPREME COURT UTt

SUPREME COURT OF THE UNITED STATES

PETITIONER

CHRISTOPHER TERRELL
V.

RESPONDENT

STATE OF ARKANSAS

ON PETITION FOR A WRIT OF CERTIORARI TO
ARKANSAS COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

CHRISTOPHER TERRELL, Pro-se
A.D.C # 87881
P.O. BOX 1630
MALVERN, AR, 72104

QUESTIONS PRESENTED

1.

Is a criminal conviction unconstitutional and in violation of Due Process when
a jury does not remain impartial on the question of guilt for the crime
charged?

2.

Is it inherently prejudicial to a defendant for a jury not to follow the court's
instructions and conscientiously apply the law as charged by the court?

3.

When a jury considers a matter not admitted into evidence to convict the
defendant, can a state court use a rule of evidence to save the conviction and
deny the defendant his right to a fair, lawful and impartial trial?

4.

Is it considered an outside influence on a jury's deliberations for a jury to use
an uninstructed theory of law as the motivating factor in the jury's vote to
convict?

5.

Does the Sixth Amendment require that the no-impeachment rule give way to
permit the consideration of jury misconduct evidence of a resulting denial of
the jury trial guarantee which cast serious doubt on the fairness and
impartiality of the jury's deliberations and resulting verdict?

6.

Since the jury misconduct of Terrell's murder trial is unprecedented to the
United States history of case law, can that misconduct remain beyond
effective examination even though that examination would unquestionably
adduce evidence sufficient to provide a substantive ground to set aside the
verdict?

7.

Is it inconsistent with justice and setting a dangerous precedent for a state to
uphold a conviction where jurors have admitted that they were unable to find
that the only defendant charged and on trial did in fact commit the essential
element that would constitute the crime charged?

ii

PARTIES TO THE PROCEEDING
Petitioner CHRISTOPHER TERRELL is a prisoner at the Ouachita River
Correctional Unit in Malvern, Arkansas. Respondent is the STATE OF
ARKANSAS, who maintains custody of the Ouachita River Correctional
Unit, represented by Attorney General Leslie Rutledge with the
Arkansas Attorney General's Office.

I

111

0
TABLE OF CONTENTS

QUESTIONS PRESENTED

ii

PARTIES TO THE PROCEEDINGS,

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...... 1
STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT,

11

CONCLUSION

21

APPENDIX
App. 1

June 24, 2021 Arkansas Court of Appeals Mandate affirmed

June 24, 2021 Arkansas Supreme Court Denial of Petition for Review... App. 2

May 14, 2021 Petition for Review

App. 3

April 21, 2021 Opinion of Arkansas Court of Appeals

App. 8

March 23, 2020 Order of the Poinsett County Circuit Court..
Denying petition for Post-Conviction Relief

App.18

February 24, 2020 Petition for Post-Conviction Relief,

App.28

CERTIFICATE OF SERVICE

CoS 1
\

iv

TABLE OF AUTHORITIES
FEDERAL CASES
Page

Cite
Adams v. Texas, 448 U.S. 38

14

Brinegar v. United States, 338 U.S. 160 (1949)

19

Chapman v. California, 386 U.S. 18 (1967)

17

Coffin v. United States, 156 U.S. 432,

19

Cool v. United States, 409 U.S. 100 (1972)

18

In re Murchison, 349 U.S. 133 (1955)

20
10,12,18,19

In re Winship, 397 U.S. 358 (1970)
Irvin v. Dowd, 366 U.S. 717

16

Patterson v. Colorado, 205 U.S. 454 (1907)

17

Patterson v. New York, 432 U.S. 790 (1952)

18

Sullivan v. Louisiana, 508 U.S. 275 (1993)

19

United States v. Olano, 507 U.S. 725

16

Vicksburg & Meridian Railroad co. v. O'Brien, 119 U.S. 99 (1886)

20

Victor v. Nebraska, 511 U.S. 1 (1994)

19

Wainwright v. Witt, 469 U.S. 412

14

STATE CASES
7

Terrell v. State, 2019 Ark. App. 433

v

V

CONSTITUTIONAL AND STATUTORY PROVISIONS
U.S. Const. Amend. VI

8,12,18

U.S: Const. Amend. XIV

12

28 U.S.C. § 1257(a)

2,20

Ark. Const. Art. 10 § 2

8

Ark. Code Ann. § 5-10-102(a)(2)

3, 12

vi

'J
PETITION FOR A WRIT OF CERTIORARI
CHRISTOPHER TERRELL respectfully petitions for a writ of
certiorari to review the judgment of the Arkansas Court of Appeals in
this case.

OPINIONS BELOW
The opinion of the Arkansas Court of Appeals (App.8) is reported
at 2021 Ark. App. 179. The trial court's order denying Terrell's petition
for postconviction relief (App. 18) is not reported.

JURISDICTION
The Arkansas Court of Appeals judgment mandate was affirmed
on June 24, 2021. (App. 1). The jurisdiction of this Court is invoked
under 28 U.S.C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the Sixth Amendment, as applied to the states
through the Fourteenth Amendment:
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall been
previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defense.
This case involves the Fourteenth Amendment's Due Process of
law:
All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the

State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
This case also involves Ark. Code Ann. § 5-10-102(a)(2) MurderFirst Degree:
(a) A person commits murder in the first degree if:
(2) with purpose of causing the death of another person, the person
causes the death of another person.

2

STATEMENT OF CASE

This case arises from Christopher Terrell's claim that he received ineffective
assistance of counsel. Trial counsel failed to preserve an issue on appeal that clearly
shows that Terrell's right to a fair and impartial trial and his Due Process right to be
found guilty only beyond a reasonable doubt of every element that constitutes the
crime that he was charged with were violated. Therefore, rendering his conviction
for purposeful First Degree Murder, unconstitutional under the Sixth Amendment to
the United States Constitution. Also that even if the jury in Terrell's case did violate
his due process right to a fair trial, the Appellant Court of Arkansas ruled that
nevertheless the Arkansas Supreme Court has held that Ark. R. Evid. 606(b) is not
unconstitutional. This holding would make Terrell's conviction unconstitutional under
the Fourteenth Amendment to the United States Constitution.
Terrell and an associate, Betty Grant, were detained for questioning in the
shooting death of James Hunt. Grant, during her initial interview, told the Arkansas
State Police that she was responsible for the shooting death of James Hunt and that
Terrell was not involved, so she was charged with Hunts death. Grant, days later,
changed her story to Terrell was responsible for the shooting death of Hunt, which
led to Terrell being charged also. They were not charged as accomplices. Terrell was
charged pursuant to Ark. Code Ann. § 5-10-102 (a)(2), which states: "A person
commits murder in the first degree if... [w]ith a purpose of causing the death of

3

another person, the person cause the death of another person." (Ark. CR-18-921, R.
8). One year later Grants charge was Nolle Processed and amended to Hindering
Apprehension upon her agreeing to testify against Terrell. (Ark. CR-18-921, R.1213
A-B; R. 1216 A).
At Terrell's trial where he was on trial as the sole principal, the shooter,
Medical Examiner Dr. Adam Craig testified that James Hunt's cause of death was a
shotgun wound to the head and that the manner of death was homicide. (Ark. CR18-921, R.1022). Betty Grant testified that Terrell was the one who killed hunt. (Ark.
CR-18-921, R. 764). To impeach her testimony, trial counsel questioned her
extensively and played several portions of Grant's initial interview with the Arkansas
State Police in which she claimed that she shot Hunt, described several aspects of
the crime scene in detail and stated unequivocally that Terrell had nothing to do with
Hunts death. (Ark CR-18-921 R. 798-856; R. 861-865).
At the conclusion of the trial, the trial court Judge instructed the jury that he
would now give them the instructions that apply to the case and that the faithful
performance of their duties is essential to the administration of justice. That they
were not to consider any rule of law with which they may be familiar unless it is
included in the court's instructions. That it is their duty to apply the law to the facts
of the case and render their verdict upon the evidence and the law as instructed.
That the state must prove beyond a reasonable doubt each element of the offense
charged. That Terrell has the right to be presumed innocent until his guilt is proven

4

beyond a reasonable doubt. Christopher Terrell is charged with the offense of
Murder in the First degree. To sustain this charge the State must prove the following
things beyond a reasonable doubt; That Christopher Terrell with the purpose of
causing the death of James Hunt, Christopher Terrell caused the death of James
Hunt. That a person acts with purpose with respect to his conduct or a result thereof
when it is his conscious object to engage in conduct of that nature or to cause such
a result (Ark. CR-18-921, R. 1133-1138). The jury returned a verdict of guilty and
sentence Terrell to Twenty-Three (23) years in prison. (Ark. CR-18-921, R.1196).
Immediately following the trial, Juror John Robinson approached Terrell's trial
counsel outside the courthouse and engaged them in a conversation. During this
conversation, Juror Robinson made a comment about "not knowing which one of
them who did it" referring to who shot Hunt, whether Terrell or Grant. This
prompted Terrell's trial counsel to file a motion for a new trial on the basis that
Terrell had not received a fair and impartial trial. Also that the jury had convicted
him as an accomplice despite being instructed not to consider any rule of law that
they may be familiar with, therefore constituting an outside influence, specifically an
extraneous matter not entered into evidence because Terrell was not charged as an
accomplice nor was the jury instructed that it could convict in this manner and that
jurors can testify as to this type of misconduct. (Ark. CR-18-921, R. 183-186). This
also led to Investigator Curtis Tate with the Second Judicial Public Defenders Office
being assigned to investigate this jury misconduct issue.

5

Investigator Tate

interviewed five jurors, John Robinson, Nicole Elsey, Amanda Broglen, Holly Partain,
and Louis Griffin. Nicole Elsey submitted an affidavit which reads:
"I, Nicole Esley, served as a juror in the trial of Christopher Terrell from April
10-12,2018. I hereby state that the jury was unable to determine who specifically
shot and killed James Hunt, but that Christopher Terrell was convicted because he
was found to have been involved in the commission of the crime."
The affidavit is verified under oath that is it true and correct. (Ark. CR-18921, R.1225). The other jurors conveyed to Investigator Tate that they did not
believe that Terrell was guilty of what he was charged with, but since they were not
given any other choice of crime, such as what is considered a lesser included, they
went ahead and found him guilty anyways. (Ark. CR-20-491 Appellant's Addendum
3) All five jurors did appear at the new trial motion hearing to testify as to what
they had done.
At the new trial motion hearing, Terrell's trial counsel stated that it was
Terrell's position that the jury had considered a rule of law that was not instructed,
specifically accomplice liability. Counsel made the point that there was no
accomplice instruction given, even though the state had requested an instruction
that said, pertaining to the charge of Murder in the First Degree, "Acting alone or
with one or more persons." Terrell's counsel reminded the trial court that it had
denied the state's request on this because Terrell was the only one charged, the
principle actor in the crime and not under any form of accomplice liability. (Ark. CR-

6

18-921, R. 1077-1079). Counsel stated that if we could get to a hearing on this, the
facts would prove that the jury considered an extraneous rule of law in arriving at
their verdict and that Terrell's substantive right had been prejudiced and he was
unable to receive a fair and lawful trial. (Ark. CR-18-921, R.1233-1235). The trial
court then allowed Juror Elsey's affidavit to be filed and then ruled upon the motion
for a new trial and the affidavit. Trial court denied the motion, ruling that the
affidavit did not prove the type of information that jurors can testify about. (Ark.
CR-18-921, R.1240). Terrell's counsel then sought to proffer the five jurors
testimony for appeal reasons but was denied by the trial court of doing so. (Ark. CR18-921, R.1241). Terrell's trial counsel then filed an amended notice of appeal on
the sentencing order adjudicating Terrell guilty of Murder in the First Degree entered
on April 12, 2018 and on the Circuit Court's denial of his motion for a new trial on
July 23, 2018. (Ark. CR-18-921, R. 1226).
On appeal the Arkansas Court of Appeals refused to reach the merits of the
denial of Terrell's motion for new trial, because counsel had failed to timely file the
amended notice of appeal in accordance with Arkansas Rule of Criminal Procedure
33.3(c) and Arkansas Rule of Appellate Procedure - Criminal 2(b)(2). Terrell v.
State, 2019 Ark. App. 433, at 10-11. Terrell then filed a petition in the trial court for
post conviction relief for ineffective assistance of counsel pursuant to Arkansas Rule
of Criminal Procedure 37. (App. 28-39)

7

In the petition, Terrell states that under the United States Constitution and
the Arkansas Constitution each guarantee the right to counsel. U.S. Const. Amend.
VI; Ark. Const. Art. 10§2. This means the right to effective assistance of counsel.
Under point two Terrell raised the issue of trial counsel not preserving his jury
misconduct new trial motion based on extraneous prejudicial influence on jurors.
Terrell explained how this error of trial counsel was prejudicial to his case. That the
trial court had abused its discretion by denying the motion for new trial. That the
jurors had violated the trial court's instructions by convicting on a matter not
entered into evidence. Terrell cited other state case law where new trials had been
granted due to jurors convicting on un-instructed legal theory of accomplice liability.
(App. 35-37). There were no Arkansas State Case law examples on this issue, nor
could Terrell find any case law anywhere in America, where a jury had convicted the
/

single defendant of purposeful murder or any form form of murder, without being
able to determine that the single defendant did in fact commit the murder.
The trial court denied the Rule 37 petition without a hearing and stated that it
had reviewed the entire 1,243 page appeal record. The trial court stated that while
the previous trial court lacked jurisdiction to deny the new trial motion, its legal
conclusion was correct. Also that Ark. R. Evid. 606(b)'s exceptions don't apply and
therefore any deficiency by Terrell's trial counsel in failing to timely appeal the
deemed-denial of the new trial motion caused Terrell to suffer no prejudice. The trial
court also ruled that the affidavit submitted wasn't extraneous information, it was

8

•rf-

just a statement about an ability to reach a particular conclusion. (App. 18, 19, 25,
26.). In doing so the trial court ruled that under the test of Strickland v.
Washington, Terrell's claim fails. Terrell then filed a notice of appeal to the Arkansas
Court of Appeals from the trial court's order denying his petition for post conviction
relief pursuant to Ark. R. Crim. P. Rule 37 entered on March 23, 2020. (Ark. CR-20491, R. 41)
On appeal, Terrell sought to have his case decided by the Arkansas Supreme
Court on the basis that it was a first impression to the state, however, the Arkansas
Court of Appeals took up and ruled upon his appeal. In this appeal, on the denial of
point two of his Rule 37 petition, Terrell sought to explain, best that he could, that
the jury misconduct of his case was unprecedented. That the jury misconduct
denied him his right to a fair and impartial trial, denied him his substantial rights
afforded to him at trial by the United States Constitution Amendment 6 and 14, and
also denied him his due process right to be found guilty only beyond a reasonable
doubt of the crime he was actually charged with. Also that by the instructions given
to the jury by the trial court, the jury had violated their sworn duty of applying the
law as instructed and that this also violated his constitutional rights. Terrell also
explained that the trial court had denied him his basic fundamental constitutional
rights by first denying his motion for new trial and second by denying point two of
his Rule 37 petition. Terrell explained the United States Supreme Courts opinion on
the reasonable doubt standard. In re Winship, 397 U.S. 358 (1970), Terrell

9

explained that the enforcement of the reasonable doubt standard lies at the
foundation of our criminal law. That the Due Process places on the state the burden
of persuasion and that it was perfectly clear by the jury misconduct evidence
presented that the state simply did not carry its burden, also a constitutional
violation, being that the jury violated their oath on the question of guilt by not
remaining impartial. Also that this was amplified by the fact that there was only one
issue to be decided, did Christopher Terrell shoot and therefore cause the death of
James Hunt? Terrell finished by stating that given all these facts, he did receive
ineffective assistance of counsel for trial counsel not preserving this issue on direct
appeal. (Ark. 20-491, Appellant's Brief Arg. 11-28). Just like the trial court, the
Appellant Court side stepped the majority of Terrell's argument and affirmed the
trial court's denial of the Rule 37 petition by applying a rigid application of Ark. R.
Evid. 606(b). The Appellant Court also ruled that Terrell's argument that the jury
had denied him his due process rights was not raised at the trial court. Nevertheless
the Appellant Court ruled that the Supreme Court of Arkansas has held that Ark. R.
Evid. 606 (b) is not unconstitutional and serves the important function of
maintaining the privacy of jury deliberations and the finality of judgments. 2021
Ark. App. 179, at 7-10, (App. 14-17).
Terrell then filed a petition for review with the Arkansas Supreme Court in
which he pointed out that his due process right to a fair and impartial trial was
raised in the new trial motion, at the hearing on the motion and that the underlying

10

rational in Arkansas for issues being raised for the first time on appeal is that the
trial court never had an opportunity to make a ruling. Also that the test for
preservation could not hinge solely on whether the litigant used the correct magic
words in citing to a violation that prejudiced his right to a fair trial. (App. 5-6) The
Arkansas Supreme Court passed on this constitutional issue by denying review.
(App. 2.).
The court of Appeals Mandate was affirmed in case number CR-20-491 on
June 24, 2021. (App. 1).

REASONS FOR GRANTING THE WRIT

There is absolutely no doubt that it is a very unusual circumstance in a trial
for purposeful First Degree Murder for jurors to convict a criminal defendant for
shooting and killing the victim without being able to determine that the defendant
did in fact shoot and kill the victim. (Ark. CR-18-921, R.183-186; 1225; Ark. 20-491
Appellant's Addendum 3). So unusual that this nation's history of case law reveals
no prior examples. Key to the understanding of the matter of context in this, is that
the defendant, Christopher Terrell, was the only citizen charged and on trial for this
shooting. (Ark. CR-19-921, R.8; 1077-1079). Also, key to the understanding on this,
is that in the State of Arkansas to sustain the charge of First Degree Murder, Ark.
Code Ann. § 5-10-102 (a)(2), the state must prove two things beyond a reasonable

11

doubt. That not only did Terrell shoot but that he purposefully shot the victim
James Hunt, with the conscious object to cause Hunt's death. (Ark. CR-18-921, R.
1136-1138). So it becomes a double negative on the understanding of a fair, lawful
and impartial trial under the jury trial guarantee for the jurors to vote guilty without
being able to determine beyond a reasonable doubt that Terrell did in fact pull the
trigger that fired the one shot that caused the death of James Hunt. (Ark. CR-18921, R.1022-1023). It would also be a double negative because this action of the
jurors violates not one but two of Terrell's constitutional rights guaranteed to him at
trial. U.S.Const.Amend. VI by not remaining impartial and therefore denying Terrell
a fair trial on the question of guilt for the crime charged. U.S.Const.Amend. XIV by
not finding beyond a reasonable doubt the existence of every fact necessary.
(essential element, Ark. CR-18-921, R.1136), to constitute the charge that Terrell
was actually charged with, therefore denying him his due process of law. (See, e.g.
In re Winship, 397 U.S. 358, at 361-364),(See also CR-20-491 Appellant's brief Arg.
11-28).
This bizarre unprecedented misconduct of the jury becomes even more
egregious to Terrell's rights, when the trial court in an order denying Terrell's post­
conviction collateral proceeding Rule 37 petition, ruled that the evidence produced at
the new trial motion hearing on this misconduct, wasn't extraneous information, it
was a statement about an inability to reach a particular conclusion. (App. 26). Is not
reasonable doubt and an inability to reach a particular conclusion on the crime

12

charged, just two parts of the same? So in effect the trial court admits that a juror
has admitted that the jury during deliberations had reasonable doubt about guilt for
the crime charged. Reasonable doubt to the point that the jury disseminated to one
another Terrell's guilt under an outside un-instructed theory of liability to convict.
(Ark. CR-18-921, R.183-186;1225; Ark. CR-20-491, Appellant's Addendum 3). The
trial court also ruled that Terrell was not prejudiced by this because this was not an
outside influence. (App. 26)
This inability to reach this particular conclusion the trial court conceded the
jury misconduct evidence revealed, was only one of two particular conclusions the
jury had to reach, beyond a reasonable doubt, in order for the state to prove and
sustain its burden of persuasion. First, essential element, did Christopher Terrell
shoot James Hunt? (Ark. CR-18-921, R..1136). Second, sustain this essential
element by proving, beyond a reasonable doubt, that Terrell shot and therefore
killed Hunt on purpose with the conscious object to cause Hunt's death. (Ark. CR18-921, R.1137-1138).
The egregious denial to Terrell's basic, substantial, fundamental rights to a
fair, lawful and impartial trial, guaranteed by the Constitution, rises to an even
higher level when on appeal of the trial court's denial, Terrell gave a detailed, fact­
intensive claim of how the jury violated his due process rights, the Appellant Court
of Arkansas held: "Nevertheless, the Supreme Court (of Arkansas) held in Miles,
supra, that Rule 606(b) is not unconstitutional and serves the important functions of

13

maintaining the privacy of jury deliberations and protecting the finality of
judgments." (App. 16).
In citing to a totally distinguishable case from the facts and circumstances of
Terrell's case, the Appellant Court also said that Ark. R. Evid. 606 (b) applies to
Terrell's case "even on grounds such as mistake, misunderstanding of the law or
facts, failure to follow instructions, lack of unanimity, or application of the wrong
legal standard." (App. 16). In stark contrast to this is in Adams v. Texas, 448 U.S.
38, at 44, this Court made a point about; "the State's legitimate interest in
obtaining jurors who could follow their instructions and obey their oaths. For
example, a juror would no doubt violate his oath if he were not impartial on the
question of guilt." Also; "The State may insist, however, that jurors will consider and
decide the facts impartially and conscientiously apply the law as charged by the
court." Id., at 45. This Court stated elsewhere; "Jurors who cannot apply the law are
not impartial." Wainwright v. Witt, 469 U.S. 412, at 423. How is it then that the
State has this legitimate interest so much that they may even insist that the jury
understands the law, follows the instructions, obey their oaths and apply the right
legal standard or law as charged by the Court, but the criminally accused on trial in
the State of Arkansas does not? This holding by the State of Arkansas in Terrell's
case seems a little backwards, given the fact that the only place the word "Jury" is
found in the Constitutional Provisions concerning a criminal trial is in speaking upon
the guarantee of the rights of the criminally accused. U.S.Const. Amend. VI. So the

/

14

V*

>

State of Arkansas has placed the concerns about the privacy of the jury's
deliberations over, above, or in front of Terrell's right to a fair, lawful, and impartial
trial.
If this is allowed to stand, will this then be what future criminally accused
citizens on trial in the State of Arkansas need to come to expect at their trials? And
if so, will this then permit other states, in the course of their legitimate interests in
maintaining the privacy of jury deliberations and protecting the finality of
judgments, to infringe upon their criminally accused's constitutional right to a fair,
lawful and impartial trial to shield the egregious misconduct of their jury trials? Does
this not reduce the Sixth Amendment jury trial guarantee to just a mere form of
words? Is not the jury trial guarantee implemented with the concern that an
American citizen not be convicted for a crime on which the jurors could not find that
the American citizen did in fact commit the essential elements of the crime that the
American citizen is on trial for? Or reduce the risk that a citizen guilty of one crime
might be convicted of a more serious crime of which he is innocent?
Once it has been revealed that a guilty verdict was rendered without being
able to determine or possessing the inability to find the essential elements which
constitute the crime charged, would not allowing that verdict to stand be
inconsistent with justice? This type of unprecedented, egregious jury misconduct
can be obscured by all the fancy legalization anyone chooses to pour on it, but in
the end, unfair, unlawful, and un-impartial is still unfair, unlawful, and un-impartial

15

is it not?

Do you believe that society in their substantial public interest of the

administration of the criminal law would call this unfair, unlawful, and un-impartial?
Do you believe that American citizens would be okay with being adjudged guilty of
shooting and killing someone when their jurors were unable to determine or reach
the particular conclusion that they did in fact shoot and kill someone? Are not the
words fair, lawful and impartial in their full meanings to be applied to criminal trials
by jury? Does not prejudice arise when jurors admit to misconduct that proves that
they did not follow the court's charge and that the failure to follow the law as
charged by the court proves un-impartiality?
There is absolutely nothing in the entire record of Terrell's case that would
give jurors the legal right to return a verdict of guilt without being able to determine
beyond a reasonable doubt (reach particular conclusion) that Terrell shot and killed
James Hunt. (Ark. CR-18-921, R.1133-1138). To convict Terrell for being involved in,
but not for committing the essential element of the crime, is an extraneous intrusion
to the whole context of the trial itself. The "ultimate inquiry" is whether the intrusion
"affected the jury's deliberation and thereby its verdict." United States v. Olano, 507
U.S. 725, 113 S.Ct. 1770, at 1780. Given this, a new trial is warranted if there is a
reasonable possibility that it could have affected the verdict. In Terrell's case it was
the intrusion which was the motivating factor to convict. This was unfair, unlawful,
and un-impartial because, "The modern Juror's verdict must be based upon
evidence developed at the trial." Irvin v. Dowd, 366 U.S. 717, at

16

722. The

prosecution never presented in its case in chief or argument Terrell's guilt under the
form of liability the jury used to convict on. Neither did the court's charge.
The modern jury is conceived of as an institution that determines the merits
of a case solely on the basis of the evidence developed and argument presented to
them in the course of the trial in accordance with established trial procedure. Mr.
Justice Holmes expressed this concept over one hundred years ago in the following
language: "The theory of our system is that the conclusions to be reached in a case
will be induced only by evidence and argument in open court, and not by any
outside influence." Patterson v. Colorado, 205 U.S. 454, 462, 27 S.Ct. 556,558,41 L.
Ed. 879 (1907). When the jurors step outside this constitutional protected boundary
in the determination of guilt, then they forfeit the right to be considered unabaised
and qualified to serve. The law is reason apart from passion. Accordingly, courts in
their inquiry should always be continually sensitive to any type of jeopardy to a
criminal defendant's Sixth Amendment rights. Consistent with the jury trial
guarantee, Chapman v. California, 386 U.S. 18,87 S.Ct. 824, 17 L.Ed. 2d 705
(1967) says the question it instructs the reviewing court to consider is not what
affect the constitutional error might generally be expected to have upon a
reasonable jury, but rather what effect it had upon the guilty verdict in the case at
hand. What is the reason for a guilty verdict without the finding of the essential
elements of the crime, exactly, passion. The courts of Arkansas failed Terrell in this
aspect by placing the jury first and him second. (App.16). In doing so the Appellant

17

Court has set forth a dangerous precedent in Arkansas to promote irregularity and
injustice. A criminal defendant is never to be deprived of his liberty without Due
Process of law no matter the reason. It would be blinking at reality not to recognize
the extreme prejudice inherent in this, to future criminally accused citizens in
Arkansas.
The corroborating evidence of five jurors leaves no doubt that the State's
case against Terrell was not overwhelming and that they considered extensively in
their deliberations to convict him as only being involved, instead of the trigger puller
as the state's case in chief implied him to be and the courts charge required him to
be. (Ark. CR-18-921 R.1136-1138). This corroboration of five jurors cast serious
doubt on the fairness and impartiality of the jury's deliberations. (Ark. CR-18-921 R.
183;1225; Ark. CR. 20-491 Appellant's Addendum 3). The Sixth Amendment
provides that "[i]n all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury..." What the fact finder must determine
(reach a particular conclusion) to return a verdict of guilty is prescribed by the Due
Process Clause. The prosecution bears all elements of the offense charged, see e.g.
Patterson v. New York, 432 U.S. 790, 795, 72 S.Ct. 2319,2327, 53 L.Ed. 1302
(1952), and must persuade the fact finder "beyond a reasonable doubt" of all the
facts necessary to establish each of those elements, see, e.g., In re Winship, 397 U.
S. 358, 364, 90 S.Ct. 1068, 1072, 25 L.Ed. 2d 368 (1970); Cool v. United States,
409 U.S. 100,104, 93 S.Ct. 354,357,34 L.Ed.2d 335 (1972) (percuriam). This right

18

to be convicted beyond a reasonable doubt is a "historically grounded right of our
system, developed to safeguard men from dubious and unjust convictions." Brinegar
v. United States, 338 U.S. 160,174,69 S.Ct. 1302,93 L.Ed. 1879 (1949).That the
government must prove beyond a reasonable doubt every element of an offense
charged is "an ancient and honored aspect of our criminal justice system." Victor v.
Nebraska, 511 U.S. 1,5,114 S.Ct. 1239,127 L.Ed. 2d 583 (1994). The reasonabledoubt standard plays a vital role in the American scheme of criminal procedure. It is
a prime instrument for reducing the risk of convictions resting on factual error.
Winship, 397 U.S., at 363. The standard provides concrete substance for the
presumption of innocence - that bedrock 'axiomatic and elementary' principle whose
'enforcement lies at the foundation of the administration of our criminal law/
Winship, 397 U.S., at 363 (quoting Coffin v. United States, supra, 156 U.S., at 453,
15 S.Ct. at 403.) Accordingly, a society that values the good name and freedom of
every individual should not condemn a man when there is reasonable doubt about
his guilt. Winship, 397 U.S., at 364. In fact, this Court has said that the reasonabledoubt requirement is a basic protection "without which a criminal trial cannot
reliably serve its function." Sullivan v. Louisiana, 508 U.S. 275,281,113 S.Ct. 2078,
124 L.Ed. 2d 182 (1993).
Unprecedented. Terrell has not been able to locate in any of the jury
misconduct cases he has found, concerning an array of issues, any example of
where jurors have convicted a singularly charged and singularly on trial defendant

19

for shooting and killing a victim without being able to determine, reach the
particular conclusion, that said defendant did in fact pull the trigger shooting and
killing the victim. Very unusual circumstance indeed. There just simply are no prior
examples that even come close to leading him on his quest for relief of his unfair,
unlawful, un-impartial, wrongful conviction.
Terrell has respectfully cited to cases by this court that he believes in some
way helps him establish the merits of his argument. But even this court has never
decided this type of unusual issue concerning this type of egregious jury misconduct
as the facts and circumstances of Terrell's case has revealed. In Vicksburg &
Meridian Railroad co. v. O'Brien, 119 U.S. 99,103 ,7 S.Ct. 172,174,30 L.Ed. 299
(1886) this court speaking through Mr. Justice Harlan, said: "While this court will not
disturb a judgment for an error that did not operate to the substantial injury of the
party against whom it was committed, it is well settled that a reversal will be
directed unless it appears beyond doubt that the error complained of did not and
could not have prejudiced the rights of the party." America's system of law has
continuously endeavored to prevent even the possibility of unfairness. See In re
Murchison, 349 U.S. 133,75 S.Ct. 623,99 L.Ed. 942 (1955).
Terrell's Due Process rights were violated. It takes no fanciful flight to
perceive this. At what cost to his, and future criminally accused citizens rights must
be payed in order for the State of Arkansas to shield the privacy of the jury's
deliberation? This court, of course, has jurisdiction over the final judgments of state

20

post-conviction courts, see 28 U.S.C. § 1257(a), and exercises that jurisdiction in
appropriate circumstances. Issuance of the writ of ceriorari is necessary to review
this very unusual circumstance of unprecedented, egregious jury misconduct, being
that it applies to a criminal defendants constitutional right to a fundamentally fair,
lawful, and impartial trial in this nation. The alternative to granting review, after all,
is forcing Terrell to endure yet more years in an Arkansas Prison in service of a
conviction that is constitutionally flawed.

CONCLUSION

For the foregoing reasons, the Writ should be granted.

Dated this the oiP day of September, 2021.

Christopher Terrell, Pro-se
A.D.C. #87881
P.O. Box 1630
Malvern, AR, 72104

21

